No.

IN THE
SUPREME COURT OF THE UNITED STATES

IMEH U. AFFIAH
— PETITIONER
(Your Name)
VS.
TEXAS SOUTHMOST COLLEGE; LISSA FRAUSTO; MIKE SHANNON
— RESPONDENT(S)
PROOF OF SERVICE
1

., do swear or declare that on this date,
, 20 , as required by Supreme Court Rule 29 I have served the
enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A
WRIT OF CERTIORARI on each party to the above proceeding or that party’s counsel, and on every
other person required to be served, by depositing an envelope containing the above documents in the
United States mail properly addressed to each of them and with first-class postage prepaid, or by
delivery to a third-party commercial carrier for delivery within 3 calendar days.
IMFTT IT. AFFIAH

The names and addresses of those served are as follows:
ESPARZA & GARZA, LLP
964 E. LOS EBANOS BLVD.
BROWNSVILLE, TEXAS 78520

I declare under penalty of peijury that the foregoing is true and correct.
Executed on

No.

IN THE
SUPREME COURT OF THE UNITED STATES

IMEH U. AFFIAH
— PETITIONER
(Your Name)
VS.
TEXAS SOUTHMOST COLLEGE; LISSA FRAUSTO; MIKE SHANNON
— RESPONDENT(S)
PROOF OF SERVICE
I

TMF.H IT. AFFIAH
__________________ ,

do swear or declare that on this date,
~£fZ) p-/ 5 20 , as required by Supreme Court Rule 29 I have served the
enclosed MOTION f6r LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A
WRIT OF CERTIORARI on each party to the above proceeding or that party’s counsel, and on every
other person required to be served, by depositing an envelope containing the above documents in the
United States mail properly addressed to each of them and with first-class postage prepaid, or by
delivery to a third-party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
ESPARZA & GARZA, LLP
964 E. LOS EBANOS BLVD.
BROWNSVILLE, TEXAS 78520

I declare under penalty of peijury that the foregoing is true and correct.
Executed on

klo^rl 1Z

